No. 19A_______
In the
SUPREME COURT OF THE UNITED STATES
October Term 2019
___________
FORD MOTOR COMPANY,
Applicant,
v.
UNITED STATES OF AMERICA,
Respondent.
___________
Application for an Extension of Time Within Which
to File a Petition for a Writ of Certiorari to the
United States Court of Appeals for the Federal Circuit
___________
APPLICATION TO THE HONORABLE
CHIEF JUSTICE JOHN G. ROBERTS, JR.
AS CIRCUIT JUSTICE
___________
PETER D. KEISLER*
RICHARD M. BELANGER
GORDON D. TODD
ERIKA L. MALEY
DANIEL J. HAY
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
pkeisler@sidley.com
Counsel for Applicant Ford Motor Company
November 20, 2019
* Counsel of Record

PARTIES TO THE PROCEEDING
Petitioner (plaintiff-appellee below) is Ford Motor Company. Respondent
(defendant-appellant below) is the United States of America.

i

STATEMENT PURSUANT TO RULE 29.6
Pursuant to Supreme Court Rule 29.6, Applicant Ford Motor Company states
as follows: Ford Motor Company is a publicly traded company with no parent
corporation. State Street Corporation owns 10% or more of Ford Motor Company’s
stock.

ii

APPLICATION FOR EXTENSION OF TIME
Pursuant to this Court’s Rules 13.5, 22, and 30.3, Applicant Ford Motor
Company (“Ford”) hereby requests a 30-day extension of time, to and including
February 13, 2020, within which to petition for a writ of certiorari in this case.
Absent an extension, the petition would be due on January 14, 2020. This
application is made at least 10 days before that date.
JUDGMENT FOR WHICH REVIEW IS SOUGHT
The judgment sought to be reviewed is the decision of the United States
Court of Appeals for the Federal Circuit in Ford Motor Co. v. United States, 926
F.3d 741 (Fed. Cir. 2019) (attached hereto as Exhibit A).
JURISDICTION
The Federal Circuit issued its decision on June 7, 2019. On October 16, 2019,
the court denied Ford’s petition for panel rehearing and rehearing en banc
(unreported order attached as Exhibit B). This Court’s jurisdiction would be
invoked under 28 U.S.C. § 1254(1).
REASONS JUSTIFYING AN EXTENSION OF TIME
1.

This case concerns the proper classification of Ford’s Transit Connect

vehicles under the Harmonized Tariff Schedule of the United States (“HTSUS”).
The Transit Connect is a multipurpose vehicle available in passenger and cargo
configurations, which Ford manufactures in Turkey. Each Transit Connect, which
is built on the chassis of a Ford Focus sedan and is modeled after a passenger van
that Ford sells in Europe, is designed to meet all safety requirements for a
passenger vehicle, and is imported into the United States with either one or two

rows of rear passenger seatbacks. After importation, certain Transit Connects—
called in this litigation the “Transit Connect 6/7s,” based on a digit in their Vehicle
Identification Number—are converted into cargo vans by removing the rear
seatbacks and seat belt, covering the rear footwells, and adding a cargo floor mat.
2.

For years, and with the full knowledge of the U.S. Customs and Border

Protection (“Customs”), Ford declared the Transit Connect 6/7s as passenger
vehicles under Heading 8703 of the HTSUS (“vehicles principally designed for the
transport of persons”) and paid a tariff of 2.5% ad valorem. In 2013, Customs
issued a ruling that the Transit Connect 6/7s should instead be tariffed under
Heading 8704 (“Motor vehicles for the transport of goods”) at a rate of 25% ad
valorem, because after importation those vehicles are converted from passenger
vans to cargo vans. Ford challenged that ruling in the Court of International Trade
(“CIT”). Consistent with this Court’s long-established rule that “[t]he dutiable
classification of articles imported must be ascertained by an examination of the
imported article itself, in the condition in which it is imported,” Worthington v.
Robbins, 139 U.S. 337, 341 (1891) (emphasis added), the CIT granted summary
judgment in favor of Ford, ruling that the Transit Connect 6/7s are imported as
passenger vehicles and that post-importation modifications do not affect their
classification.
3.

The government appealed, and the Federal Circuit reversed. Despite

acknowledging that Heading 8703 is an eo nomine provision—meaning that the
tariffed good must be assessed based on what it is and not how it is used—the court
ruled that Heading 8703 “inherently suggests a type of use” and thus considered the
2

post-importation modification and use of the Transit Connect 6/7s to determine the
applicable HTSUS heading. See Ford, 926 F.3d at 750. The court concluded that
the vehicles’ intended post-importation use as cargo vans overrode their condition at
importation as street-legal passenger vehicles.
4.

Ford believes the Federal Circuit’s decision warrants this Court’s

review, because it conflicts with this Court’s precedent on how Customs should
assess the tariff classification of an imported good—namely, that it should look to
the condition of the good at the time of importation, rather than any postimportation modifications or use. See Worthington, 139 U.S. at 341; accord United
States v. Citroen, 223 U.S. 407, 414–15 (1912); United States v. Schoverling, 146
U.S. 76, 81–82 (1892); Merritt v. Welsh, 104 U.S. 694, 701 (1882). The decision
below is the latest and most deeply problematic of a line of cases holding that
Customs may consider a good’s “inherently suggest[ed] … use” in determining its
tariff classification. Judges have warned that the Federal Circuit’s emerging case
law on this point “blurs the boundaries between eo nomine and principal use
provisions in ways that will promote confusion and error.” GRK Can., Ltd. v.
United States, 761 F.3d 1354, 1366 (Fed. Cir. 2014) (Reyna, J., dissenting). What is
more, the Federal Circuit has inconsistently applied this novel and misguided rule.
Compare Ford, 926 F.3d 741 (“vehicles principally designed for the transport of
persons” inherently suggests use), with W. States Import Co. v. United States, 154
F.3d 1380 (Fed. Cir. 1998) (bicycles “not designed for use with [wide] tires” does not
inherently suggest use). This inconsistency and departure from controlling
precedent has undermined Congress’ goal of a “simple and workable” customs law
3

that ensures “uniformity in the imposition of duties.” Citroen, 223 U.S. at 414–15,
424. Ford therefore intends to ask this Court to grant a writ of certiorari to correct
the decision below and to bring the Federal Circuit’s practice into conformance with
this Court’s precedent.
5.

There is good cause for a 30-day extension of time to file a petition for

writ of certiorari in this case. The record below is voluminous, and contains
confidential business information and other confidential material. Moreover, an
extension is warranted to permit counsel sufficient time to address the complex
factual and legal issues presented by this case.
6.

The extension of time is also necessary because of the press of other

client business. For example, undersigned counsel of record is responsible for
delivering oral argument in National Ass’n of Manufacturers v. U.S. Department of
Treasury, No. 1:19-cv-00053-JAR (Ct. Int’l Trade), on December 3, 2019. Ford’s
other counsel, likewise, have various professional obligations during that time,
including other briefs and motions, arguments, and trial.
7.

An extension of 30 days will not cause any prejudice to Respondent.

The Federal Circuit’s mandate in this case issued on October 23, 2019, and Ford is,
under protest, declaring newly imported Transit Connect 6/7s under Heading 8704.
Accordingly, the brief extension of time requested will have no effect on the
Treasury or the government’s ability to apply its tariff ruling.

4

CONCLUSION
For the foregoing reasons, Ford respectfully requests that this Court grant a
30-day extension of time, to and including February 13, 2020, within which to
petition for a writ of certiorari.
Dated: November 20, 2019

Respectfully submitted,
/s/ Peter D. Keisler
PETER D. KEISLER*
RICHARD M. BELANGER
GORDON D. TODD
ERIKA L. MALEY
DANIEL J. HAY
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
pkeisler@sidley.com
Counsel for Applicant Ford Motor Company
* Counsel of Record

5

